            U.S. Department of Energy
            Office of Inspector General
            Office of Audit Services




Audit Report
Savannah River Site's Waste
Solidification Building




DOE/IG-IG-0618                            September 2003
                               Department of Energy
                                   Washington, DC 20585

                                   September 4, 2003



MEMORANDUM FOR

FROM:
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Savannah River Site's
                          Waste Solidification Building"

BACKGROUND

The Department of Energy's National Nuclear Security Administration (NNSA) plans to
spend about $58 million to design and construct a facility at the Savannah River Site
which will treat radioactive liquid wastes. The proposed facility, commonly referred to
as the Waste Solidification Building (WSB), will produce several waste forms acceptable
for disposal at existing sites around the complex. This effort is a part of the Department's
Plutonium Disposition Program. NNSA approved the conceptual design for the WSB in
July 2002. Construction is scheduled to begin in December 2004, with expected facility
operation beginning in 2007. We conducted this audit to determine whether the
Department has a complete plan to dispose of waste generated from the Plutonium
Disposition Program.

RESULTS OF AUDIT

While NNSA intended to transfer waste treated at the WSB to the Department's Office of
Environmental Management, it had not coordinated its plans with that office.
Consequently, Environmental Management's long-range plans did not include disposition
of the WSB-treated waste and the Department lacked a cost or schedule baseline for its
disposal. Additionally, during the audit, Environmental Management took the position
that receiving, processing, and disposing of the waste was NNSA's responsibility.
Without an integrated and coordinated plan, the Department's environmental disposition
goals may not be achieved and life-cycle costs for the Plutonium Disposition Program are
likely to exceed initial estimates.

We are concerned that this may be symptomatic of a broader issue facing the
Department. Specifically, the audit disclosed that procedures for disposal of newly
generated nuclear wastes from NNSA activities have not been developed. Although our
report specifically addresses only one NNSA project, the issue of establishing disposal
paths for newly generated wastes has potential consequences for the Department well into
the next decade. Consequently, we recommended that NNSA, in coordination with
Environmental Management, establish a comprehensive and definitive program for the
disposal of NNSA-generated nuclear waste.



                                 a9    Pnnted wlth soy ink on recycled paper
                                             2

Our Special Report on Management Challenges at the Department of Energy
(DOE/IG-0580, December 2002) identified Environmental Cleanup as one of the most
difficult challenges the Department faces. In particular, we discussed the necessity for
clearly defined mission requirements and comprehensive plans to meet those needs. In
this context, the Department should ensure that it has a fully coordinated approach to the
disposition of waste streams from its continuing operations.

MANAGEMENT REACTION

NNSA did not concur with our specific recommendations. NNSA indicated that it was
premature to develop a plan and formal agreement to transfer waste from the WSB to
Environmental Management, citing uncertainties regarding WSB waste volumes and
waste disposal options, along with the fact that the WSB is not scheduled to begin
operations until 2007. Also, NNSA provided, as part of its comments, a recent
memorandum from the Assistant Secretary for Environmental Management indicating
Environmental Management's position that NNSA is responsible for managing and
disposing of the radioactive waste generated by its programs. Management's comments
have been included as Appendix 3.

The Office of Inspector General agrees that the exact amount of WSB waste was
uncertain; however, in our judgment, Savannah River Site waste forecasts provided a
sufficient basis to initiate the formal planning process. Moreover, we found that the
comments from NNSA and Environmental Management (Appendix 3) reflect very
different and, in effect, incompatible positions on this subject. The comments, in fact,
tended to reinforce the view that the Department needs to make timely, corporate
decisions regarding waste disposal responsibilities.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Manager, Savannah River Operations Office
SAVANNAH RIVER SITE'S WASTE SOLIDIFICATION BUILDING

TABLE OF
CONTENTS



                Waste Disposal Plan

                Details of Finding .......................................................................   1

                Recommendations and Comments ...........................................                     3


                Appendices

                Prior Audit Reports .....................................................................    5

                Objective. Scope. and Methodology...........................................                 6

                Management Comments ............................................................             7
WASTE DISPOSAL PLAN


Background            The Waste Solidification Building (WSB) is designed to treat two low-
                      level waste streams and two transuranic waste streams produced at
                      Savannah River by the Plutonium Disassembly and Conversion Facility
                      and the Mixed Oxide Fuel Fabrication Facility. The WSB will produce
                      a solid low-level waste form that is acceptable for disposal on-site, and
                      a solid transuranic waste form that is acceptable for shipment and
                      disposal at the Waste Isolation Pilot Plant (WIPP), located near
                      Carlsbad, New Mexico. Additionally, the WSB will generate liquid
                      low-level waste that will be treated at the Effluent Treatment Facility in
                      preparation for disposal in the on-site Saltstone Facility. The
                      processing steps for each stream of waste to be treated include receipt,
                      volume reduction, neutralization, storage, and shipment.

Plan Development      A complete disposal path for waste generated by the WSB has not yet
                      been identified. According to the National Nuclear Security
                      Administration's (NNSA) Conceptual Design Study for WSB, the
                      facility is expected to produce about 8 19,000 gallons of liquid low-level
                      waste, 5,200 drums of solid low-level waste, and 17,000 drums of solid
                      transuranic waste over the 13-year life of the program. The Conceptual
                      Design Study further states that, beginning in 2007, the three types of
                      waste will be transferred to Environmental Management, which will
                      further treat or dispose of the waste as specified above. Conversely,
                      Environmental Management's long-range plans, as described in such
                      documents as the Department's Transuranic Waste Performance
                      Measurement Plan, contain no specific direction to receive, process, or
                      dispose of the waste produced by the WSB.

                      We discussed this inconsistency with NNSA and Environmental
                      Management officials both at Savannah River and at Department
                      Headquarters. NNSA's management confirmed that disposition of
                      WSB-generated waste was neither part of, nor contemplated in, the cost
                      and schedule baseline developed for the overall Plutonium Disposition
                      Program. Similarly, Environmental Management officials from
                      Savannah River, as well as an official fkom the WIPP program office,
                      told us that Environmental Management had no plans in place to
                      receive the WSB waste. They also noted that NNSA had not
                      approached Environmental Management with any requests or proposals
                      on disposing of this waste.

Disposal Agreement    The inconsistency between NNSA's and Environmental Management's
                      plans existed because NNSA had not requested that Environmental
                      Management accept the WSB waste, and the Department had not



Page 1                                                                     Details of Finding
                         established a coordinated program for the disposal of newly generated
                         nuclear wastes from NNSA activities. Recently, the Assistant Secretary
                         for Environmental Management established a program objective for that
                         office to divest its holdings of most nuclear materials by 2006. This is to
                         be achieved by consolidating nuclear materials and transferring custody
                         to the various Lead Program Secretarial Offices. In an October 2002
                         memorandum on this subject, the Assistant Secretary indicated that no
                         Environmental Management site was to receive or accept responsibility
                         for any additional nuclear materials without her prior approval. At the
                         time of our audit, NNSA had not formally requested that Environmental
                         Management accept the WSB waste.

                         In response to this audit, the Assistant Secretary for Environmental
                         Management stated that an existing Departmental Order and
                         accompanying manual hold NNSA clearly responsible to plan for
                         disposal of its newly generated nuclear waste. Therefore, it was not
                         necessary for NNSA to formally request Environmental Management
                         acceptance of the WSB waste. Rather, NNSA alone should plan for the
                         disposal of the waste. NNSA disagreed, stating that the Order assigns
                         responsibility for the ultimate disposal of waste to the Assistant
                         Secretary for Environmental Management. In our judgment, the
                         disagreement between NNSA and the Office of Environmental
                         Management over the responsibility for newly generated nuclear waste
                         from NNSA activities emphasizes the importance of establishing a
                         policy that clearly delineates such responsibility.

                         We noted that in a project with some parallels to WSB, NNSA and
                         Environmental Management formally agreed that wastes generated by
                         the Tritium Extraction Facility at the Savannah River Site would be sent
                         to the Intermediate Level Tritium Vault in the E-area disposal facility
                         with any modification costs to be funded by NNSA. To date, however,
                         such arrangements are made on an ad hoc basis and are not controlled by
                         a standardized policy or procedure.

Cleanup Goals and Cost   The Department's environmental disposition goals may not be achieved
                         if WSB treatment activities are not integrated and coordinated with
                         WlPP and other waste disposal activities. For example, WSB operations
                         could increase the number of shipments of transuranic waste fiom the
                         Savannah River Site to WIPP by 39 percent and extend the shipping
                         schedule by 7 years. Currently, WIPP expects to receive 1,240
                         shipments of transuranic waste fiom the Savannah River Site between
                         2003 and 2013. However, the WSB will generate an additional 486
                         shipments between 2007 and 2020. Further, we estimate that it will
                      cost the Department at least $5 million above and beyond the Plutonium
                      Disposition Program's projected life-cycle costs to s h p WSB -treated
                      transuranic waste to WPP.

                      While Savannah River Site's disposal facilities are similarly unprepared
                      for WSB waste, in that they have no plans for its disposal,
                      Environmental Management officials told us that WSB's output of
                      819,000 gallons of liquid low-level waste and 5,200 drums of solid low-
                      level waste will not have a significant impact on operations.

RECOMMENDATIONS       We recommend that the Administrator, National Nuclear Security
                      Administration:

                        1. Formally request that Environmental Management accept the
                           waste from the WSB;

                        2. Develop a complete disposition plan for the WSB waste, to
                           include total life-cycle costs; and,

                        3. Coordinate with the Assistant Secretary for Environmental
                           Management to: (1) establish procedures for the disposal of newly
                           generated nuclear waste from NNSA activities, thereby ensuring
                           that future plans are fully integrated and coordinated, and (2) issue
                           guidance to field organizations, as appropriate.


MANAGEMENT REACTION   NNSA did not concur with our recommendations. NNSA believes that
                      current waste disposal plans are adequate considering uncertainties
                      inherent at this stage and that it is premature to develop a plan and
                      formal agreement to transfer waste from the WSB to the Office of
                      Environmental Management when the facility will not be operational
                      until 2007. The following specific reasons were cited.

                      First, the design for the treatment of WSB wastes is currently being
                      developed and the amounts and distribution of wastes to be disposed of
                      are uncertain at this time. To illustrate, NNSA is currently evaluating
                      an option that would eliminate liquid wastes but significantly increase
                      the amount of low-level solid wastes that would need to be
                      dispositioned. This option would eliminate NNSA's need to use the
                      Office of Environmental Management's Effluent Treatment Facility.
                      The exact amount of wastes that will need to be dispositioned from the
                      WSB will be defined at the completion of the preliminary design
                      sometime this summer and the WSB performance baseline, established
                      at that time, will include the total life-cycle cost.

Page 3                                                  Recommendations and Comments
                       However, as part of the conceptual design planning process,
                       estimates were prepared of the amounts of wastes that would need to
                       be disposed of during operations. Since the disposal paths for the
                       WSB wastes employ well-established technologies currently in use
                       at Savannah River and waste estimates are expected to be well within
                       current capabilities, NNSA has the highest confidence that the
                       wastes can be disposed of. Finally, the estimated amounts of wastes
                       to be disposed of appear in Savannah River site waste forecasts so
                       that they will not be overlooked.

                       As noted, the Assistant Secretary for Environmental Management
                       ascribes to the view that NNSA alone has responsibility for WSB-
                       generated waste.

                       Both NNSA's and Environmental Management's comments can be
                       found in Appendix 3.

AUDITOR COMMENTS       The disparate positions taken by NNSA and Environmental
                       Management emphasize the need for formal development of a
                   .   complete disposition plan for WSB waste and coordination among
                       the affected offices. While the exact amounts and distribution of
                       WSB wastes are not yet known, the characteristics of the waste are
                       known and preliminary estimates of waste volumes have been
                       prepared and can be used to begin the formal planning process with
                       Environmental Management. Additionally, the WSB life-cycle costs
                       should be finalized as soon as possible. Although the WSB is not
                       expected to commence operations until 2007, initiating the formal
                       planning process could reduce the chances that the project will
                       encounter significant delays.

                       For example, NNSA has already had to significantly rescope the
                       project due to the lack of availability of Office of Environmental
                       Management facilities. Specifically, NNSA's original plan to
                       transfer waste from the project directly to the High Level Waste
                       Tanks had to be abandoned due to the fact that the Office of
                       Environmental Management planned to close the tanks prior to the
                       project's completion. Finally, while NNSA still has various options
                       for disposing of WSB waste, it is apparent that some portion of the
                       waste will have to go to the Office of Environmental Management.
                       For example, the transuranic waste component of the WSB will have
                       to be sent to the Office of Environmental Management's WIPP.




Page 4                                                                Auditor Comments
Appendix I

                                           PRIOR REPORTS


         The Department of Energy's Strategyfor Disposal of Plutonium (ER-L-02-01, February 2002).
         The Department's original approach for the disposal of plutonium - immobilizing 8.4 metric
         tons of plutonium and converting 25.6 metric tons to fuel - is estimated to cost about $6.3
         billion. In contrast, we estimated that converting all 34 metric tons to reactor fuel would cost
         about $4.6 billion and immobilizing all the material would cost about $4.3 billion. Department
         officials originally believed that converting all of the plutonium into fuel was not technically
         feasible and the Russian Federation would reject a proposal to immobilize the entire amount.
         However, the Department had since resolved the technical feasibility issues surrounding
         conversion. The audit disclosed that the Department could save at least $1.7 billion by
         converting all of the surplus plutonium into fuel and avoiding the cost of plutonium
         immobilization.

         The Plutonium Immobilization Plant at the Savannah River Site (IG-0522, September 2001).
         The audit determined that the proposed Plutonium Immobilization Plant potentially overlapped
         with the capability of Savannah River Site's FB Line Facility, and could duplicate the
         capability of the Treatment and Storage Facility, which was scheduled to be operational in
         September 2008. The Department's Office of Fissile Materials Disposition had not considered
         the FB Line Facility or the Treatment and Storage Facility as alternatives for disposing of
         excess plutonium. We estimated that the Department could save $650 million if it used
         existing or planned facilities, rather than build the Plutonium Immobilization Plant.




Page 5                                                                                Prior Audit Reports
Appendix 2
OBJECTIVE     The objective of the audit was to determine whether the Department of
              Energy has a complete plan to dispose of waste generated from the
              Plutonium Disposition Program.

SCOPE         The audit was performed fiom July 9,2002, to December 13,2002, at
              the Savannah River Site in Aiken, South Carolina. The audit included a
              review of the Department's plans for disposal of radioactive waste
              generated from the Plutonium Disassembly and Conversion Facility and
              the Mixed Oxide Fuel Fabrication Facility.

METHODOLOGY   To accomplish the audit objective, we:

                     Researched Department directives regarding project
                     management and disposal of radioactive waste;

                     Analyzed the Conceptual Design Studyfor the PIutonium
                     Disposition Facilities Waste Solidijication Building (July 2002);

                     Reviewed additional studies, cost estimates, and schedules for
                     the disposition of liquid waste streams from the Plutonium
                     Disposition Program;

                     Assessed compliance with the Government Performance and
                     Results Act of 1993; and,

                     Interviewed National Nuclear Security Administration and
                     Office of Environmental Management personnel to identify and
                     evaluate the Department's plans for disposal of radioactive
                     waste from the Plutonium Disposition Program.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed internal controls and performance measures related to the
              planned disposal of waste fiom the Plutonium Disposition Program.
              Because our review was limited, it would not necessarily have disclosed
              all internal control deficiencies that may have existed at the time of our
              audit. We did not conduct a reliability assessment of computer-
              processed data because only a very limited amount of computer-
              processed data was used during the audit.

              The Director, Policy and Internal Controls Management, Office of
              Business Operations, waived the exit conference.

Page 6                                         Objective, Scope, and Methodology
Appendix 3


                                   Department of Energy
                            National Nuclear Security Administration
                                     Washington, DC 20585

                                        JUN 1 8 2003

         MEMORAXDUM FOR                Frederick D. Doggett
                                       Deputy -4ssistant Inspector General
                                         for Audit Services

         FROM:                         Michael C . Kane
                                       Acting Associate Adininisfsator
                                        for Management and Administration

         SUBJECT:                      Response to Draft Report on Waste Solidification
                                       Dui 1ding

         The Office of Inspcctor General (1G) conducted an audit of the planned Savannah
         River Site's Waste Solidification Building to detennine whether the Department
         has a complete plan to dispose ofwaste generated from the Plutonium Disposition
         Program. The draft report indicates that the IG believes that the plan for
         Plutoniuin Disposition Program waste is incomplete in that National Nuclear
         Security Administration (NNS.4) plans to transfer the waste treated at the
         solidification building to Enviroiunental Management, but Environmental
         Management has no corresponding plans to receive. process, and dispose of the
         waste. The report further indicates that the IG believes that a path forward docs
         not exist because there is no established policy for disposal of newly generated
         nuclear wastes from XNSA activities.

         N S S A believes that it is premature to develop a plan to transfer waste from the
         futurc Waste Solidification Building to the Office of Environmental Managcment
         for several reasons. First, the requirements for the preliminary design of the
         Waste Solidification Building are evolving to account for uiicertainties regarding
         infrastructure support at the Savannah River Site during the time the plutonium
         disposition facilities will be operational. Second. the Waste Soliditication
         Building is not scheduled to begin operations until 2007. Third, the transfer of
         treated waste to the Office of Environmental Management is one of several
         options under NYSA consideration. Current NNSA plans do not depend on
         Savannah River Site support for the Waste Solidification Building. Consequently.
         there is no need for a plan and formal agreemcnt with the Office of Environmental
         -Management at this time for the transfer of waste. However, at some appropriate
         time in the future. hWS.4 intends to initiate discussion nith the Office of
         Environmental Management to explore ways in which the two programs can
         cooperate on ways to reduce costs.




Page 7                                                                        Management Comments
Appendix 3 (continued)



                                                                                              2

          With regard to established policy for waste. The Assistant Secretary for
          Environmental Management, in comments provided to the Admini strator,
          disagrees that there is no established policy for disposal of newly generated
          nuclear wastes from hWSA activities. The Assistant Secretary states that the
          existing policy is embodied within a DOE order and accompanying
          manual and provides clear responsibility for h ! S A and its field element inanagers
          to plan for disposal ofnemly generated nuclear waste from NNSA4activities.
          KNSA; however, disagrees wizh the Assistant Secretary for Envirolmiental
          Management interpretation of the DOE Order with regard to NYSA activities.
          h 3 S A ' s view is that the DOE Order assigns responsibilit3-for ultimate disposal of
          waste to the Assistant Secretary for Environmcntal Management and not NXSA.

          We appreciate the work that the 1G has donc as well as the opportunity to have
          reviewed the draft report. I have attached, for your review, a copy of the
          memorandum froin the Assistant Secretary ofEiivironmenta1 54anagernent to thc
          Administrator which provides commcnts to the IG's draft report. 'I have also
          attached a copy of the technical comments generated by the NNS.4 cognizant
          program office. We appreciate having had the opportunity to review the draft
          report.

          Should you have any questions, please coiitact Richard Speidel, Director, Policy
          and Internal Controls Management at 586-5009.

          Attachments

          cc:   Deputy Administrator for Defense Nuclear Konproliferation. KA-20
                Assistant Secretary for Environmental Management. EM- 1
                David Marks. Field Chief Financial Officer. SvcCert'NV




Page 8                                                                           Management Comments
    Appendix 3 (continued)
.   -   -




                                       Department of Energy
                                           Washington, DC 20585
                                            May 1 5 , 2003




             MEMORANDUM FOR MIBASSADOR LINTON F. BROOKS
                            UNDER SECRETARY AND ADMINISTRATOR
                            NATIONAL hXJCLEAR SECUKI'TY
                            ADMINISTRATION

             FROM

                                        ENVIRONMENTAL W A G E M I . 3 N T

             SUBJECT                  Comments on the Office of Inspector General's Draft
                                      Audit Report: Savannah River Sire 's Wusfe Solidijication
                                      Building

             The purpose of this tnemorandum is to provide comments from the Office of
             Environmental Management (EM) on the Inspector General (IG)
             recommendations contained in the subject draft report. The draft
             rccommendations are directed to thc National Nuclear Security Administration
             (NNSA), but, as currently worded, also are of interest to and have an impact on
             EM.

             Department of Energy (DOE) Order 435.1, Radioactive Waste Managemenr, and
             its associated manual, provide requirements for DOE and NNSA to follow in
             managing radioactive waste. Section 1.2.A of the manual specifics that "Program
             Secretarial Officers with radioactive waste management facilities, operations, or
             activities are responsible within their respective programs for cnsuring that the
             Field Element Managers meet the requirements of DOE 0 435. I , Radioaciive
             Waste Management, and this Manual."

             The draft IG recommendationsshould he reworded to recognize this policy - that
             is, that NNSA is responsibie for managing and disposing of the radioactive waste
             generated by its programs.

             Therefore, the following comments are provided for avo of thc three drafl IG
             recommendations:

             1. Reword Recommendation ff 1 ("Formally request that Environmental
                Management accept the waste from the WSB [Waste Solidification
                Building].") to ROW read, "Formally plan for the disposal of newly generated
                nuclear waste from the WSl3."




                                        @ Printed   wlh soy ink on recycied paper



    Page 9                                                                          Management Comments
Appendix 3 (continued)


                                                                                            2


          2. Delete Recommendation i# 3 (“Coordinate with thc Assistant Secretary for
             Environmental Management to establish a policy far the disposal of newly
             generated nuclear waste from NNSA activities, thereby ensuring that firture
             ptans are fully integrated and coordinated. If necessary, elevate the
             establishment of this policy to the Deputy Secretary.”). The existing policy
             embodied within DOE 0 435.1 arid its manual provides clear responsibility
             for XNSA and its field element managers to plan for disposal of newly
             generated nuclear waste from h‘h‘SA activities. No hrther policy
             development is required.

          If you have any furtber questions, please call me at (202)586-7709 or
          k1s. Patrice M. Bubar, Associate Deputy Assistant Secretary for Integration and
          Disposition, at (202) 586-5 15 1.




Page 10                                                                          Management Comments
                                                                              IG Report No. : DOE/IG-0618

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of htme reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helphl to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name                                           Date

Telephone                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
